                                                                 ig
                                              April 2006 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES ..................................................... 1
  Management Challenge: Competitive Sourcing ................................................................... 1
  Management Challenge: Improved Financial Performance ................................................. 2
  Management Challenge: Budget and Performance Integration ............................................ 2
  Management Challenge: Expanded Electronic Government................................................ 3
  Management Challenge: Strategic Management of Human Capital..................................... 3

COMMISSION PROFILE ......................................................................................................... 5

THE OFFICE OF INSPECTOR GENERAL ............................................................................. 7

AUDITS ..................................................................................................................................... 8
Reports Issued During this Period.............................................................................................. 8
     Independent Audit of the U.S. International Trade Commission’s Financial Statements
     for Fiscal Years 2005 and 2004 and the Commission's Management Challenges ........... 8
     Management letter: Audit of the U.S. International Trade Commission’s Financial
     Statements for Fiscal Years 2005 and 2004...................................................................... 9
Audit Follow–Up...................................................................................................................... 10
     Evaluation of the U.S. International Trade Commission’s Fiscal Year 2005 Information
     Security Program and Practices, OIG-AR-04-05 (September 27, 2005)........................ 10
     Evaluation of USITC’s Records Management, OIG-AR-05-00 (March 7, 2001).......... 10

INVESTIGATIONS ................................................................................................................. 11
Summary of Investigative Activity .......................................................................................... 11

OTHER ACTIVITIES.............................................................................................................. 12
    Regulatory Review.......................................................................................................... 12
    Government Accountability Office (GAO) .................................................................... 12
    Management Assistance.................................................................................................. 13
    Liaison Activities ............................................................................................................ 13

REPORTING REQUIREMENTS INDEX .............................................................................. 15

Table 1: AUDIT REPORTS WITH QUESTIONED COSTS................................................. 16
Table 2: AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO
         BETTER USE ........................................................................................................... 17

GLOSSARY............................................................................................................................. 18



                                                                       i
                                           ig
                              April 2006 SemiAnnual Report




     COMMISSION’S TOP MANAGEMENT CHALLENGES
The “Top Management Challenges” facing the Commission as identified by the OIG—as
well as recent OIG activities relating to each challenge—are discussed below. Through
audits and inspections, the OIG has been helping the Commission to address these
challenges.

We discuss the Commission’s management challenges within the framework of the
President’s Management Agenda (PMA) that included five somewhat interrelated
Government-wide initiatives: (1) Competitive Sourcing, (2) Improved Financial
Performance, (3) Budget and Performance Integration, (4) Expanded Electronic Government,
and (5) Strategic Management of Human Capital.

Because the Commission was not among the 24 PMA agencies and has not established PMA
deliverables and time lines, neither the Commission nor the OIG has attempted to score its
PMA progress. However, the Commission’s budget justifications, as well as its strategic
planning documents, expressed the Commission’s commitment to the spirit of the five PMA
initiatives. OIG work addressing the Commission’s adherence to that spirit is discussed
below.

Management Challenge: Competitive Sourcing. To improve the performance and
efficiency of activities that are commercial in nature, the PMA calls for departments and
agencies to compare their commercial activities with those of the private sector and
determine whether the private sector or government employees perform the activity. The
intended outcome is better service at a lower price.

The Commission has competitively contracted for information technology services, certain
editing and publishing services, mailroom and general labor services, cleaning and building
maintenance services, and security services. Private sector contract employees comprise
more than 10 percent of on-site personnel. In addition, other services are acquired on an as-
needed basis, such as virtually all equipment maintenance services, application systems
design and development, and certain audit and financial services. For example, the OIG
contracts for financial and information technology audit services.

The Commission has stated that its permanent staff is devoted to core agency investigative
functions and recurring support activities where the cost of outsourcing is less competitive.
The Commission issued its 2005 comprehensive list of commercial activities


                                               1
                                            ig
                              April 2006 SemiAnnual Report




COMMISSION'S TOP MANAGEMENT CHALLENGES—Continued

consistent with the Federal Activities Inventory Reform (FAIR) Act. The
Commission has said that it will continue to evaluate competitive alternatives and efficient
service contracting options to maximize efficiency and minimize cost. During this period,
OIG audits and inspections did not address competitive sourcing.

Management Challenge: Improved Financial Performance. This initiative is to improve
the quality and timeliness of financial information so that it can be used to reduce waste,
fraud, and abuse and manage federal programs more effectively. The key components of the
Commission’s FY 2006 budget were personnel (75 percent), support services (12 percent),
and rent (10 percent). In compliance with the Accountability of Tax Dollars Act of 2002, the
Commission produced financial statements, notes and a management discussion and analysis
for FY 2005. During this period, the OIG’s audit found no material weaknesses and resulted
in an unqualified opinion on the statements.

Management Challenge: Budget and Performance Integration. The Office of
Management and Budget (OMB) plans eventually to expand its examination of federal
budget decisions to 100 percent of federal programs. Performance information will be used
to (1) end or reform programs that either cannot demonstrate positive results or are clearly
failing and (2) put resources in programs that can prove they are successful.

The Commission restructured its budget formulation and execution activities to permit the
allocation of virtually all costs to one of the five operations set forth in the Strategic Plan.
All indirect costs have been allocated to the Commission’s five operations with the exception
of the OIG activities. These are reported as unallocated indirect costs. The Commission also
presents data using a budget object classification methodology. Budget integration efforts to
date have allowed Commission managers to track changes in workload and compare them to
changes in cost. In doing so, the Commission is able to determine whether resources are
being allocated efficiently.

The performance goals and indicators in the Commission’s Annual Performance Plan also
provide measures by which the agency’s activities can be assessed. The Commission’s
program performance results for FY 2005 was presented in the Performance and
Accountability Report submitted to Congress. During this period, OIG audits and
inspections did not address budget and performance integration.




                                               2
                                            ig
                              April 2006 SemiAnnual Report




COMMISSION'S TOP MANAGEMENT CHALLENGES—Continued

Management Challenge: Expanded Electronic Government. This initiative is designed to
bring more services to the American citizen over the Internet, make government more
efficient, and improve information technology (IT) management throughout the Executive
Branch.

Every Commission business process—investigations, research, trade information services,
trade policy support, and administration—depends on reliable and effective information
systems and services. The information that the Commission processes and generates is a
valuable asset that management must protect from loss, misuse, unauthorized access or
modification. The Commission redesigned its website and made improvements to its
Electronic Document Information System and the Interactive Tariff and Trade DataWeb
systems.

While progress has been made in meeting certain e-government requirements, our evaluation
under the Federal Information Security Management Act (FISMA) found the Commission
made limited progress in strengthening its IT security program during FY 2005. While the
security process is a continuous cycle of evaluating, improving, and monitoring controls of
the major IT systems, the Commission had not completed many basic steps towards
achieving security over its systems. The OIG identified weaknesses in these areas as early as
2001, but the Commission has been slow in fully implementing the recommendations. We
made 23 recommendations for improvement with which the Commission concurred.

Management Challenge: Strategic Management of Human Capital. Facing substantial
prospective retirements, agencies must hire and retain people with needed skills and hold
them accountable for serving customers and stakeholders. OMB determined that 20 PMA
agencies had plans in place to assess their workforce and to use every tool at their disposal to
recruit and retain the workforce they need to fulfill their missions.

As previously noted, human capital is the Commission’s largest resource, with salaries and
personnel benefits representing approximately 75 percent of the budget. The Commission
maintains an expert staff of professional international trade and nomenclature analysts,
investigators, attorneys, economists, computer specialists and administrative support
personnel. All employees are located at 500 E Street SW, Washington, DC 20436. At the
end of FY 2005, the Commission employed a total of 361 permanent employees.




                                               3
                                          ig
                             April 2006 SemiAnnual Report




COMMISSION'S TOP MANAGEMENT CHALLENGES—Continued

During this period, the Commission made progress on a Human Capital Vision and Strategic
Human Capital Plan, which outline the strategies that the Commission will use to address the
significant human capital issues the Commission will face over the next 3 to 5 years. OIG
audits and inspections did not address human capital management.




                                             4
                                           ig
                              April 2006 SemiAnnual Report




                           COMMISSION PROFILE
                                    http://www.usitc.gov

The Commission is an independent, nonpartisan, quasi–judicial federal agency established by
Congress to provide trade expertise to both the Legislative and Executive Branches of
government. Its mission is to: administer U.S. trade remedy laws within its mandate in a fair
and objective manner; provide the President, the U.S. Trade Representative (USTR) and the
Congress with independent, quality analysis, information, and support on matters of tariffs
and international trade and competitiveness; and maintain the Harmonized Tariff Schedule of
the U.S. In so doing, the Commission serves the public by implementing U.S. law and
contributing to the development of sound and informed U.S. trade policy. Major
Commission activities include:

       •   Import Injury Investigations—The Commission makes determinations in a variety
           of import injury investigations, primarily antidumping and countervailing duty
           (AD/CVD) investigations concerning the effects of unfairly traded imports on a
           U.S. industry.
       •   Intellectual Property–Based Investigations—The Commission adjudicates
           complaints brought by domestic industries under section 337 of the Tariff Act of
           1930 that allege infringement of U.S. intellectual property rights and other unfair
           methods of competition by imported goods.
       •   Industry and Economic Analysis—The Commission’s industry and economic
           analysis program consists of probable economic effects investigations under
           section 131 of the Trade Act of 1974 or section 2104 of the Trade Act of 2002;
           analysis of trade and competitiveness issues under section 332 of the Tariff Act of
           1930; and independent assessments on a wide range of emerging trade issues.
       •   Trade Information Services—The Commission’s trade information services
           include such activities as legislative reports; maintenance of the Harmonized
           Tariff Schedule; Schedule XX; U.S. Schedule of Services Commitments under the
           General Agreement on Tariffs and Trade/World Trade Organization; preparation
           of U.S. submissions to the Integrated Database of the World Trade Organization;
           and certain other information gathering, processing, and dissemination activities.
       •   Trade Policy Support—The Commission supports the formulation of U.S. trade
           policy, providing objective input to both the Executive Branch and the Congress
           on the basis of the distinctive expertise of its staff.


                                              5
                                           ig
                              April 2006 SemiAnnual Report




COMMISSION PROFILE—Continued

The Commission consists of six Commissioners, appointed by the President and confirmed
by the Senate, who serve one term of nine years, unless appointed to fill an unexpired term.
No more than three Commissioners may be of the same political party. The Chairman and
Vice Chairman are designated by the President and serve a 2–year statutory term. The
Chairman is responsible, within statutory limits, for the administrative functions of the
Commission.

The current Commissioners are Stephen Koplan, Jennifer A. Hillman, Deanna Tanner Okun,
Charlotte R. Lane, Daniel R. Pearson, and Shara L. Aranoff. The current Chairman is
Stephen Koplan and the current Vice Chairman is Deanna Tanner Okun.

In FY 2006, the Commission had an estimated $65.3 million in available funds and a staffing
plan for 392.5 permanent positions and 22 term/temporary positions. All employees are
located in one building at 500 E Street, SW, Washington, DC.




                                              6
                                          ig
                             April 2006 SemiAnnual Report




               THE OFFICE OF INSPECTOR GENERAL
                                  http://www.usitc.gov/oig

The Commission established the OIG pursuant to the 1988 amendments to the Inspector
General Act. The Inspector General reports directly to the Chairman, and is responsible for
directing and carrying out audits, investigations, and inspections relating to Commission
programs and operations. The Inspector General also provides comments and
recommendations on proposed legislation, regulations, and procedures as to their economy,
efficiency and effectiveness.

As shown in the organizational chart, the OIG was allocated 3.5 staff years in FY 2006. This
provided for three full–time positions (Inspector General, Assistant Inspector General for
Audit, and Paralegal Specialist) and one part–time position (Counsel to the Inspector
General). However, during this reporting period, two positions became vacant. The
Inspector General retired October 31, 2005 and the Paralegal Specialist left the Commission.
Once an Inspector General is selected, the remaining position may be filled. In the
meantime, the Assistant Inspector General for Audit has been serving as the Acting Inspector
General.

The OIG was allocated $240,000 for OIG contracted audit and review services for FY 2006.


                  Office of Inspector General: Organization
 Full-time
     Inspector General
             Vacant



                                                                               Part-time
    Assistant Inspector             Paralegal Specialist               Counsel to the
    General for Audit                     Vacant                     Inspector General




                                             7
                                          ig
                             April 2006 SemiAnnual Report




                                        AUDITS
                         Reports Issued During this Period

We issued two audit reports during this period:

   •   Independent Audit of the U.S. International Trade Commission’s Financial
       Statements for Fiscal Years 2005 and 2004 and the Commission's Management
       Challenges (OIG-AR-01-06, November 14, 2005)
   •   Management letter: Audit of the U.S. International Trade Commission’s Financial
       Statements for Fiscal Years 2005 and 2004 ( OIG-AR-02-06, March 31, 2006)


Independent Audit of the U.S. International Trade Commission’s Financial Statements
for Fiscal Years 2005 and 2004 and the Commission's Management Challenges
http://www.usitc.gov/oig/OIG-AR-01-06.pdf


We audited the Commission’s FYs 2005 and 2004 financial statements and issued an
unqualified opinion. We performed the audit in accordance with U.S. generally accepted
government auditing standards, which included audit follow-up on recommendations we
reported from our prior year’s audit titled Management Letter: Audit of USITC's Financial
Statement for the Year Ended Sept. 30, 2004 (OIG-AR-03-05, March 24, 2005), and
applicable provisions of the Office of Management and Budget Bulletin 01-02, Audit
Requirements for Federal Financial Statements.

The audit found that the financial statements fairly presented the Commission’s financial
position as of September 30, 2005, in all material respects, in conformity with accounting
principles generally accepted in the United States of America. Additionally, the audit found
no material weakness in the Commission’s internal controls and compliance with laws and
regulations.

As part of the audit, we also reported on the top management challenges facing the
Commission as identified by the OIG—as well as recent OIG activities relating to each
challenge. These five challenges—Competitive Sourcing; Improved Financial Performance;



                                              8
                                            ig
                              April 2006 SemiAnnual Report




AUDITS—Continued

Budget and Performance Integration; Expanded Electronic Government; and Strategic
Management of Human Capital—are discussed on pages 1 to 4.



Management letter: Audit of the U.S. International Trade Commission’s Financial
Statements for Fiscal Years 2005 and 2004
http://www.usitc.gov/oig/ OIG-AR-02-06.pdf

In connection with our audit of the Commission’s financial statements for FYs 2005 and
2004, we issued a management letter that identified issues not required to be included in the
financial statements report. We made five recommendations which, when implemented,
should strengthen the Commission’s internal controls over its operations.

Specifically, the Commission should:

•   Improve the oversight of property by ensuring an Administrative Notice is issued which
    provides guidance for controlling both fixed assets and accountable property. The
    guidance should clarify procedures and assign responsibilities for controlling all types of
    assets. The guidance should also address the responsibilities associated with the
    operation of the inventory database.

•   Improve procedures over depositing funds by designating an alternate person to serve as
    back-up in the event the primary person responsible for depositing funds within the
    established time-frames is unavailable.

•   Strengthen controls over purchase activity by requiring Cost Center Managers to verify
    their requested action was: (a) accurately entered into the Commission’s procurement
    records; and (b) timely obligated.

•   Develop procedures to ensure proper tax reporting of employee awards.

•   Develop policies and procedures to ensure compliance with the Federal Managers’
    Financial Integrity Act of 1982.




                                               9
                                           ig
                              April 2006 SemiAnnual Report




                                    Audit Follow–Up

Pending recommended actions remain open on two audits reported in the previous
semiannual report:

Evaluation of the U.S. International Trade Commission’s Fiscal Year 2005 Information
Security Program and Practices, OIG-AR-04-05 (September 27, 2005)
http://www.usitc.gov/oig/ OIG-AR-04-05.pdf

Our annual independent audit of the Commission’s information security program and
practices resulted in 23 recommendations, all of which were agreed to by management. The
Commission completed action on over half of the 23 recommendations and intends to
address the remaining recommendations by the end of August 2006.

Due to the sensitive content, we have limited distribution of this and prior information
security annual reports.



Evaluation of USITC’s Records Management, OIG-AR-05-00 (March 7, 2001)
http://www.usitc.gov/oig/OIG-AR-05-00.pdf

The Commission agreed with all 22 recommendations, implemented 21, but has yet to:

   •   Identify records scanned by EDIS so they can be disposed.

The Commission has been working with the National Archives and Records Administration
on the standards for verifying scanned copies and steps needed to conform the electronic
records schedule to the paper records schedule.




                                              10
                                         ig
                            April 2006 SemiAnnual Report




                               INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.



                        Summary of Investigative Activity

During this reporting period, two new cases were initiated and one case was closed. A
summary of investigative activity is presented below.


   Case Workload           Referrals Processed                Investigative Results

                           Received from
Open (09/30/05)    1                               0      Referrals for Prosecution      0
                           Hotline
                           Referred to OIG
                                                          Referrals Declined for
Initiated          2       Audit & Inspection      0                                     0
                                                          Prosecution
                           Division
                           Referred to
Closed             1                               0      Administrative Action          0
                           Commission
                           Referred to other
Open (03/31/06)    2                               0
                           Federal Agencies
                           Evaluated but no
                           Investigation           0
                           Initiated




                                              11
                                           ig
                              April 2006 SemiAnnual Report




                              OTHER ACTIVITIES

Regulatory Review
The Inspector General Act, 5 U.S.C., Appendix, Section 4(a) (2), requires the OIG to review
existing and proposed legislation and regulations and to make recommendations concerning
the impact of such legislation or regulations on the economy and efficiency of programs and
operations administered by the Commission.

The OIG evaluates the impact that new or revised procedures will have on the economy and
efficiency of programs and operations. During this reporting period, the OIG reviewed and
commented on a draft internal directive—Employee Medical Emergencies directive.



Government Accountability Office (GAO)
The Inspector General Act states that each Inspector General shall give particular regard to
the activities of the Comptroller General of the United States with a view toward avoiding
duplication and ensuring effective coordination and cooperation. During this period, the
GAO issued four reports related to trade and none contained a recommendation for the
Commission. The four reports are:

   •   International Trade: U.S. and India Data on Offshoring Show Significant Differences
       (GAO-06-116, October 27, 2005).

   •   China Trade: U.S. Exports, Investment, Affiliate Sales Rising, but Export Share
       Falling (GAO-06-162, December 9, 2005)

   •   U.S.-China Trade: Eliminating Nonmarket Economy Methodology Would Lower
       Antidumping Duties for Some Chinese Companies (GAO-06-231, January 10, 2006)

   •   U.S.-China Trade: The United States Has Not Restricted Imports under the China
       Safeguard (GAO-05-1056, September 29, 2005)




                                             12
                                          ig
                              April 2006 SemiAnnual Report




OTHER ACTIVITIES—Continued


Management Assistance
The Assistant Inspector General for Audit provided the Commission with comments and
suggestions on the agency’s privacy management responsibilities.

The OIG Counsel served as the OIG representative to the Commission’s Records Management
Revision Team. Counsel prepared for the OIG a new records disposition schedule, which has
been submitted to the National Archives and Records Administration for acceptance. Also,
Counsel served as the OIG representative to the Commission’s 337 Rules Committee. The
Commission is in the process of implementing revisions to the agency’s rules of practice in
337 proceedings, which involve intellectual property infringement and other unfair acts.



Liaison Activities
The Acting Inspector General participated in activities sponsored by the Executive Council
on Integrity and Efficiency (ECIE). Established by Executive Order 12805 on May 11, 1992,
the ECIE is chaired by the Office of Management and Budget and, in addition to the
Inspectors General, includes representatives from the Office of Personnel Management, the
Office of Government Ethics, the Office of Special Counsel, and the Federal Bureau of
Investigation. The ECIE’s functions and responsibilities are to promote integrity and
efficiency and to detect and prevent fraud, waste and abuse in federal programs.

The Acting Inspector General is an active member of the Federal Audit Executive Council
and the Financial Statement Audit Network. The functions and responsibilities of these
groups is to anticipate potential changes and share experiences related to auditing.

The OIG Counsel is a member of the Council of Counsels to the Inspectors General (CCIG).
During this reporting period, she served as one of the Vice-President’s of this organization.
Her duties include recording the minutes of the monthly meetings and assisting with facility
arrangements. The February CCIG meeting was held at the Commission.

The OIG Counsel is also a member of the Inter-agency Ethics Council, which is composed of
Federal employees involved in ethics issues. The OIG Counsel provides a monthly report to
the Council on federal court cases involving ethics issues.




                                             13
                                         ig
                             April 2006 SemiAnnual Report




Furthermore, as a member of the Association of Directors of Investigations, the OIG Counsel
attended the Association of Directors of Investigations Conference in Virginia Beach, VA in
March 2006. The conference featured sessions covering topics such as computer crimes, the
financial crimes enforcement network, warnings and white collar crime.
In addition to her professional contributions to the federal OIG community, the OIG Counsel
was a volunteer tutor for a third grade elementary school student. The Commission adopted
Amidon Elementary School, a neighboring District of Columbia public school, for which
Commission employees voluntarily tutor students in a variety of subjects.




                                            14
                                          ig
                              April 2006 SemiAnnual Report




                   REPORTING REQUIREMENTS INDEX
The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
semiannual reports.

CITATION           REPORTING REQUIREMENTS                                           PAGE
Section 4(a)(2)    Recommendations concerning the impact of such legislation
                   or regulations on the economy and efficiency in the
                   administration of programs and operations administered or
                   financed by the Commission                                       12
Section 5(a)(1)    Description of significant problems, abuses, and deficiencies
                   relating to the administration of programs and operations        None
Section 5(a)(2)    Description of the recommendations for corrective action
                   made with respect to significant problems, abuses, or
                   deficiencies                                                     None
Section 5(a)(3)    Identification of each significant recommendation described
                   in previous semiannual reports on which corrective action has
                   not been completed                                               10
Section 5(a)(4)    Summary of matters referred to prosecutive authorities and
                   the prosecutions and convictions which have resulted             None
Section 5(a)(5)    Summary of each report made to the head of the
                   establishment under which information or assistance was
                   unreasonably refused                                             None
Section 5(a)(6)    Listing of each audit report                                     8-9
Section 5(a)(7)    Summary of each significant report                               8-9
Section 5(a)(8)    Statistical tables showing Audit Reports–Questioned Costs        16
Section 5(a)(9)    Statistical tables showing Audit Reports–Funds Put to Better
                   Use                                                              17
Section 5(a)(10)   Summary of each audit report issued before the
                   commencement of the reporting period for which no
                   management decision has been made by the end of the
                   reporting period                                                 None
Section 5(a)(11)   Description and explanation of the reasons for any significant
                   revised management decisions                                     None
Section 5(a)(12)   Information concerning any significant management decision
                   with which the Inspector General is in disagreement              None



                                             15
                                             ig
                             April 2006 SemiAnnual Report




     Table 1: AUDIT REPORTS WITH QUESTIONED COSTS

                                                                    Dollar Value

                                                      Number of Questioned Unsupported
                                                       Reports    Costs       Costs

A.    For which no management decision has been made
      by the commencement of the period                     0       0              0

B.    Which were issued during the reporting period         0       0              0

      Subtotals (A + B)                                     0       0              0

C.    For which a management decision was made during
      the reporting period

      (i) Dollar value of disallowed costs                  0       0              0

      (ii) Dollar value of costs not disallowed             0       0              0

D.    For which no management decision has been made
      by the end of the reporting period                    0       0              0

E.    Reports for which no management decision was
      made within six months of issuance                    0       0              0




                                             16
                                         ig
                            April 2006 SemiAnnual Report




     Table 2: AUDIT REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE
                                                        Number of   Dollar
                                                         Reports    Value

A.    For which no management decision has been made
      by the commencement of the period                     0         0

B.    Which were issued during the reporting period         0         0

      Subtotals (A + B)                                     0         0

C.    For which a management decision was made during
      the reporting period

      (i) Dollar value of recommendations that were
          agreed to by management                           0         0

      (ii) Dollar value of recommendations that were
       not agreed to by management                          0         0

D.    For which no management decision has been made
      by the end of the reporting period                    0         0

E.    Reports for which no management decision was
      made within six months of issuance                    0         0




                                           17
                                            ig
                              April 2006 SemiAnnual Report




                                      GLOSSARY
The following definitions apply to the terms used in this report.

Questioned cost             means a cost that is questioned by the Office because of: (1) an
                            alleged violation of a provision of a law, regulation, contract,
                            grant, cooperative agreement, or other agreement or document
                            governing the expenditure of funds; (2) a finding that, at the time
                            of the audit, such cost is not supported by adequate
                            documentation; or (3) a finding that the expenditure of funds for
                            the intended purpose is unnecessary or unreasonable.

Unsupported cost            means a cost that is questioned by the Office because the Office
                            found that, at the time of the audit, such cost is not supported by
                            adequate documentation.

Disallowed cost             means a questioned cost that management, in a management
                            decision, has sustained or agreed should not be charged to the
                            Government.

Recommendations that        means a recommendation by the Office that funds could be used
funds be put to better      more efficiently if management of an establishment took actions
use                         to implement and complete the recommendation, including: (1)
                            reduction in outlays; (2) deobligation of funds from programs or
                            operations; (3) withdrawal of interest subsidy costs on loans or
                            loan guarantees, insurance, or bonds; (4) costs not incurred by
                            implementing recommended improvements related to the
                            operations of the establishment, a contractor or grantee; (5)
                            avoidance of unnecessary expenditures noted in preaward reviews
                            of contract or grant agreements; or (6) any other savings which
                            are specifically identified.




                                              18
